                                                                   Issue Date
                                                                            February 27, 2007
                                                                   Audit Report Number
                                                                                2007-DE-1002




TO:        Ann Roman, Director, Denver Office of Public Housing, 8APH

           //signed//
FROM:      Ronald J. Hosking, Regional Inspector General for Audit, 8AGA

SUBJECT: The Lusk Housing Authority in Lusk, Wyoming, Improperly Awarded Its
           Administration and Management Contract


                                    HIGHLIGHTS

 What We Audited and Why


             We reviewed the Lusk Housing Authority’s (Authority) administration and
             management contract with Housing Operations and Management, Incorporated
             (contractor), to determine whether the Authority awarded the contract in accordance
             with federal procurement requirements. We performed the audit because we
             discovered that the contractor’s owner/president was also the executive director of
             the Authority.

 What We Found

             The Authority did not follow federal procurement requirements and its own
             procurement policy when it awarded its administration and management contract to
             the contractor. Members of the Authority’s board of commissioners (board) did not
             fully understand their duties and responsibilities related to the procurement process
             for the award of this contract. Without following federal procurement requirements,
             the Authority has no assurance that it received the best price for the services
             provided under the terms of the contract.
What We Recommend


           We recommend that HUD ensure that the board takes all actions necessary to
           provide its members with a full understanding of their duties and responsibilities
           related to the federal procurement process and require the Authority to amend its
           existing administration and management contract to include all required contract
           provisions.
           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-3.
           Please furnish us copies of any correspondence or directives issued because of the
           audit.

Auditee’s Response


           We provided the discussion draft of the audit report to the Authority on February
           12, 2007, and requested its comments by February 26, 2007. During the exit
           conference on February 22, 2007, the Authority agreed with the finding and
           recommendation and declined to provide us with written comments.




                                            2
                           TABLE OF CONTENTS

Background and Objectives                                                  4

Results of Audit
      Finding 1: The Authority Improperly Awarded Its Administration and   5
                 Management Contract

Scope and Methodology                                                      7

Internal Controls                                                          8




                                           3
                 BACKGROUND AND OBJECTIVES

The laws of the State of Wyoming created the Lusk Housing Authority (Authority). The
Authority administers public housing programs authorized by the Quality Housing and Work
Responsibility Act of 1998.

Since February 2006, an administration and management contractor, Housing and Operations
Management, Incorporated (contractor), has managed the day-to-day operations for the
Authority. The U.S. Department of Housing and Urban Development (HUD) recommended
the contractor to the Authority because the Authority was on HUD’s “troubled” list. On
February 1, 2006, the Authority entered into a one-year contract with the contractor. The
contractor administers the Authority’s low-rent program, ensuring compliance with federal
and state regulations and Authority policies, along with any changes to those regulations and
policies. The Authority’s low-rent program consists of 20 units.

The contractor has been in existence since 1979. As part of the contract, the contractor’s
current president/owner also serves as the executive director of the Authority.

The objective of our audit was to determine whether the Authority awarded its administration
and management contract to the contractor in accordance with federal procurement
requirements.




                                            4
                                   RESULTS OF AUDIT

Finding 1: The Authority Improperly Awarded Its Administration and
           Management Contract
The Authority did not follow federal procurement requirements and its own procurement policy
when it awarded its administration and management contract to Housing and Operations
Management, Incorporated (contractor). The members of the Authority’s board of
commissioners (board) did not fully understand their duties and responsibilities related to the
procurement process for the award of this contract. Without following federal procurement
requirements, the Authority has no assurance that it received the best price for the services
provided under the terms of the contract.



 The Authority Did Not Follow
 Federal Procurement
 Requirements


              On February 1, 2006, the Authority improperly awarded a one-year administration
              and management contract to provide the day-to-day administration of its operations.
              The Authority awarded the contract without following federal procurement
              requirements and its own procurement policy. The Authority did not promote
              competition by advertising a request for proposal and did not perform an
              independent cost estimate. Additionally, the Authority did not perform a cost
              analysis.

              Also, the Authority did not include all clauses required by the Office of Federal
              Procurement Policy in its administration and management contract. For example,
              every contract must include all provisions required by 24 CFR [Code of Federal
              Regulations] 85.36(i) (i.e., compliance with the Copeland “Anti-Kickback” Act).

 The Board Lacked
 Understanding of Procurement
 Requirements


              The board did not fully understand its duties and responsibilities related to the
              procurement process for the award of the administration and management
              contract. The board awarded the contract to the contractor based partly on HUD’s
              recommendation. The current board needs training in how to comply with federal
              procurement requirements.




                                               5
 Lack of Competition and The
 Authority Has No Assurance
 That It Is Receiving the Best
 Price for the Services Provided


             Without advertising a request for proposal, there is no competition for the award of
             the contract. Without performing the required independent cost estimates and cost
             analysis, the Authority did not have assurance that it received the best price for the
             services provided. The independent cost estimate gives the Authority a fair market
             value basis on which to evaluate incoming proposals. The cost analysis ensures that
             the proposed price is reasonable for the services provided under the contract. A cost
             analysis on bids or proposals received is required to verify the proposed cost data
             and to evaluate specific elements of the costs. In this case, the Authority had no way
             of identifying the fair price concerning labor, indirect costs, and profits proposed. It
             also could not determine whether it paid for questionable or unallowable costs or
             inflated items.


Recommendations



             We recommend that the director, Denver Office of Public Housing,
                     1A. Ensure that the Authority’s board takes all actions necessary to
                         provide its members with a full understanding of their duties and
                         responsibilities related to the federal procurement process.
                     1B. Require the Authority to amend its existing administration and
                         management contract to include all required contract provisions.




                                                6
                           SCOPE AND METHODOLOGY

To accomplish our audit objective, we obtained and became familiar with the applicable
procurement requirements and regulations. We also

          1. Interviewed Denver Office of Public Housing staff and reviewed their project
              files;
          2. Interviewed Housing and Operations Management, Incorporated (contractor) staff;
          3. Performed site work at the Cheyenne Housing Authority and obtained and
              reviewed files, audited financial statements, and financial records for the Lusk
              Housing Authority;
          4. Obtained and reviewed the Authority’s contract agreement with the contractor and
              related board approval;
          5. Interviewed Authority board members and discussed the audit results with them;
              and
          6. Discussed the audit results with the contractor’s president/owner, who also serves
              as the executive director of the Authority.

Our audit period covered October 1, 2003, through October 31, 2006.

We performed the audit work from October to December 2006. We conducted the audit in
accordance with generally accepted government auditing standards.




                                              7
                             INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls


              We determined the following internal control was relevant to our audit objective:

                  •   The Authority’s policies and procedures for procurement activities.

              We assessed the relevant control identified above.

              A significant weakness exists if management controls do not provide reasonable
              assurance that the process for planning, organizing, directing, and controlling
              program operations will meet the organization’s objectives.

 Significant Weaknesses


              Based on our review, we did not identify any significant weaknesses.




                                                8
